HHS/OIG, Audit -"Review of Gwinnett Medical Center's Claim for Medicare Disproportionate Share Hospital Payments for Fiscal Year 1999,"(A-04-02-02021)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Gwinnett Medical Center's Claim for Medicare Disproportionate Share Hospital Payments for Fiscal Year
1999," (A-04-02-02021)
May 2, 2003
Complete
Text of Report is available in PDF format (622 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out the results of our review of the revised Medicare disproportionate share hospital
(DSH) claim submitted by Promina Gwinnett Medical Center (PGMC) for fiscal year ended June 30,1999.  We found that
PGMCs claim for Medicare DSH reimbursement of $2,386,024 was overstated by $288,564.  This overstatement occurred
because the Medicaid eligible days used in PGMCs revised DSH calculation were overstated.  Medicaid eligible days
were overstated due to the incorrect inclusion of days related to dual eligible beneficiaries and duplicated days for some
beneficiaries.  We recommended that the hospital revise its claim to reflect the audited Medicaid eligible days count,
thus reducing the revised DSH adjustment and amount requested by $288,564.  We also recommended that PGMC establish
procedures to assure only allowable days are included in its future DSH adjustment calculations.  The hospital generally
agreed with our findings and recommendations.